                               EXECUTIVE SUMMARY

    This semiannual report summarizes the major activities
performed by the Office of the Inspector General during the
reporting period, October 1, 2011 through March 31, 2012.
During the reporting period, this office worked on eight
audits or reviews.   At the end of the reporting period,
five audits or reviews and two investigations were in
progress.

     The Office of the Inspector General received four
complaints during the reporting period, each of which
resulted in the initiation of a formal investigation.
Seven investigations were closed or transferred during the
reporting period.    Management officials acted on the
recommendations made in the completed investigations from
the previous reporting period.

     The Office of the Inspector General continues to be
involved with the Council of the Inspectors General on
Integrity and Efficiency and the Council of Counsels to the
Inspectors General.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   1
                                    INTRODUCTION

U. S. CONSUMER PRODUCT SAFETY COMMISSION

     The U.S. Consumer Product Safety Commission (CPSC) is an
independent regulatory agency created in 1972, under the provisions
of the Consumer Product Safety Act (P.L. 92-573) to protect the
public against unreasonable risks of injuries associated with
consumer products. Under the Consumer Product Safety Act and the
Consumer Product Safety Improvement Act, Congress granted the CPSC
broad authority to issue and enforce standards prescribing
performance requirements, warnings, or instructions regarding the
use of consumer products. The CPSC also regulates products covered
by a variety of other acts, such as the Virginia Graeme Baker Pool
and Spa Safety Act, the Children’s Gasoline Burn Prevention Act,
the Flammable Fabrics Act, the Federal Hazardous Substances Act,
the Poison Prevention Packaging Act, and the Refrigerator Safety
Act.

     The CPSC is headed by five Commissioners appointed by the
President with the advice and consent of the Senate. The Chairman
of the CPSC is designated by the President.             The CPSC’s
headquarters is located in Bethesda, MD.     The agency has field
personnel stationed throughout the country. The CPSC had a budget
of $114.5 million and 548 authorized full-time equivalent positions
for FY 2012.

OFFICE OF THE INSPECTOR GENERAL

     The Office of the Inspector General is an independent office
established under the provisions of the Inspector General Act of
1978, as amended by the Inspector General Act Amendments of 1988,
and the Inspector General Reform Act of 2008.       The Inspector
General Act gives the Inspector General the authority and
responsibility to:

       •   conduct and supervise audits and investigations of
           CPSC programs and operations;

       •   provide leadership, coordination, and recommend
           policies for activities designed to: (i) promote
           economy, efficiency, and effectiveness in the
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   2
           administration of the CPSC’s programs and operations
           and (ii) prevent and detect fraud, waste, and abuse of
           CPSC programs and operations; and

       •   keep the Chairman and Congress fully and currently
           informed about problems and deficiencies related to
           the administration of CPSC programs and operations and
           the need for progress or corrective action.

     The Office of the Inspector General investigates complaints
and information received concerning possible violations of laws,
rules, and regulations, mismanagement, abuse of authority, and
waste of funds.      These investigations are in response to
allegations, complaints, and information received from CPSC
employees, other government agencies, contractors, and concerned
individuals.   The objective of this program is to ensure the
integrity of the CPSC and guarantee individuals fair, impartial,
and independent investigations.

     The Office of the Inspector General also reviews existing and
proposed legislation and regulations related to the programs and
operations of the CPSC concerning their impact on the economy and
efficiency in the administration of such programs and operations.

     The Office of the Inspector General was authorized seven full-
time equivalent positions for FY 2012: the Inspector General, a
Deputy Inspector General for Audits, an office manager, an
Information Technology auditor, and three line auditors.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress       3
                                   AUDIT PROGRAM
     During this period, the Office of the Inspector General worked
on eight audits and reviews. A summary of each follows:


AUDIT OF FINANICAL STATEMENTS

     The Accountability of Tax Dollars Act of 2002 requires that
the CPSC and other smaller agencies, which had not been required to
perform annual financial audits in the past, begin performing
annual audits of their financial statements.       This audit was
performed to meet this statutory requirement.

     The objectives of this audit were to ensure that the CPSC was
meeting its responsibilities for:     (1) preparing the financial
statements in conformity with generally accepted accounting
principles; (2) establishing, maintaining, and assessing internal
control to provide reasonable assurance that the broad control
objectives of the Federal Managers’ Financial Integrity Act are
met; (3) ensuring that the CPSC’s financial management systems
substantially comply with statutory requirements; and (4) complying
with other generally applicable laws and regulations.

     The financial statements including the accompanying notes
presented fairly, in all material respects, in conformity with
U.S. generally accepted accounting principles, the Commission’s
assets, liabilities, and net position as of September 30, 2011;
and net costs; changes in net position; budgetary resources; and
custodial activity for the year ended September 30, 2011. In
regards to fiscal year 2010, the scope of our work was not
sufficient to enable us to express an opinion on the
Commission’s financial statements.

     The Commission restated its financial statements for fiscal
year 2010 due to material errors affecting the Commission’s
Balance Sheet, Statement of Net Cost, Statement of Changes in
Net Position, Statement of Custodial activity, and the
accompanying notes. The Commission reported that, “The errors
were the result of improper accounting application of records in
the financial system in preparing the financial statements.”
Management’s disclosures were not sufficiently timely so as to
allow us to fully evaluate the effectiveness of management’s
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   4
actions to determine and correct misstatements in the previously
issued financial statements.

     Management reported that: the financial reporting
procedures had been strengthened, those procedures included
employing additional reviews to strengthen the statement
reporting process; the restatement resulted in the proper
reporting of the financial position of the FY2010 for
comparative purposes in FY 2011; and the Commission transitioned
to having the service provider provide “full service accounting”
in May of 2011.

     The Commission maintained, in all material respects,
effective internal control over financial reporting (including
safeguarding assets) and compliance as of September 30, 2011
that provided reasonable assurance that misstatements, losses,
or noncompliance material in relation to the financial
statements would be prevented or detected on a timely basis.

     However, our work identified the need to improve certain
internal controls, described in detail in the report.
Significant deficiencies were identified in the following areas:

   •   Financial Management and Reporting
   •   Fund Balance with Treasury
   •   Property, Plant, and Equipment
   •   Accounts Payable and Expenses
   •   Earned Revenue

     The results of certain tests of compliance, disclosed the
following two instances of non-compliance required to be
reported under U.S. Generally Accepted Government Auditing
Standards or OMB audit guidance:

   •   The Prompt Payment Act, as implemented by the Prompt
       Payment Final Rule (formerly OMB Circular A-125, "Prompt
       Payment") requires Executive departments and agencies to
       pay commercial obligations within certain time periods and
       to pay interest penalties when payments are late. Based on
       our review of a control sample, interest was not always
       paid when payments were late, as required by the Prompt
       Payment Act. This deficiency was first reported as a


________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    5
       Notice of Finding and Recommendation of the FY 2010
       financial statement audit on November 19, 2010.

   •   The Debt Collection Improvement Act of 1996 states that a
       non-tax debt or claim owed to the United States that has
       been delinquent for a period of 180 days shall be
       transferred to the Secretary of the Treasury for collection
       or termination of collection actions. The Commission is
       not properly reviewing and transferring debt related
       receivables resulting from individuals’ failure to pay fees
       associated with the CPSC Freedom of Information Act program
       to the Department of the Treasury’s Financial Management
       Service for collection. This deficiency was first reported
       as a Notice of Finding and Recommendation of the FY 2010
       financial statement audit on October 25, 2010.

     The CPSC’s management concurred with the facts and
conclusions cited in our report. The CPSC has begun work on
implementing our recommendations.


FEDERAL INFORMATION SECURITY MANAGEMENT ACT

     The Federal Information Security Management Act of 2002
(FISMA) requires each federal agency to develop, document, and
implement an agency-wide program to provide information security
for the information and information systems that support the
operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source.

     FISMA requires agency program officials, chief information
officers, and inspectors general to conduct annual reviews of the
agency’s information security program and report the results to the
OMB. OMB uses this data to assist in its oversight responsibilities
and to prepare this annual report to Congress on agency compliance
with the act.

     The Fiscal Year 2011 FISMA evaluation found that although much
progress has been made, and the Consumer Product Safety Risk
Management System (CPSRMS) and International Trade Data System Risk
Assessment   Methodology    (ITDSRAM)   both   received    security
accreditations, the agency’s General Support System (GSS LAN) was
no longer authorized to operate, and there remained much work to
do. It was noted that the current Authorization to Operate (ATO)

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   6
for the GSS LAN expired on June 17, 2011, and management was
unwilling to accept formally the risk posed by the operation of the
GSS LAN with its current security posture. Therefore, an interim
ATO was granted as of June 27, 2011, to allow for the continuity of
operations until a full ATO could be obtained. A full ATO for the
GSS LAN was anticipated by December 31, 2011. Granting a full ATO
at that time was contingent upon the successful mitigation or
reduction of risk associated with the three known high risk
security weaknesses. The three weaknesses preventing the agency
from granting a full ATO to the GSS LAN were: (1) multifactor
authentication was not systematically required to access the
virtual privacy network VPN; (2) an information system contingency
plan was not documented and tested; and (3) baseline security
configurations for agency hardware and software had not been
documented and implemented.

     The OIG noted 65 findings (15 of which were high-risk issues).
The IT challenges facing the agency are particularly relevant at
the present time, as the agency is dealing with the implementation
of the Consumer Product Safety Improvement Act (CPSIA), in general,
and more specifically, with the CPSIA’s particular impacts on the
agency’s IT operations; in addition, the agency is involved in the
implementation of the public facing database (CPSRMS).

     Remediation strategies had been developed to address known
vulnerabilities, with a priority placed on the highest risk issues.
The CPSC is in the process of remediating these issues; however,
the full mitigation of these risks will require a significant
amount of additional effort.

     However, it is important to note that many of these
remediation tasks were scheduled to be implemented after the FISMA
review in FY 2010, and they still have not been implemented fully.


PURCHASE CARD AUDIT(ongoing)

     This audit will assess the CPSC’s Purchase Card Program and
determine the extent to which the agency has taken corrective
action regarding the findings made in an earlier audit of its
purchase card program by Withum, Smith+Brown (WS+B).

   The CPSC utilizes GSA’s purchase card program, which is
intended to streamline federal agency acquisition processes by

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    7
providing a low-cost, efficient vehicle for obtaining goods and
services directly from vendors. The CPSC, which is subject to
the general guidance found in the Federal Acquisition
Regulations (FAR), has also set forth agency specific purchase
card policies and procedures. The CPSC has approximately 148
employees who have been issued purchase cards and whom make
approximately 7,700 purchases each year. This audit will review
both a sample of these transactions as well as assess both the
effectiveness of the existing policies and procedures as well as
the agency’s actual compliance with same.



AUDIT OF TRAVEL CHARGE CARD PROGRAM (In progress)

This audit will assess the CPSC’s compliance with Federal
statutes and regulations governing the operations of its Travel
Card Program. The Travel and Transportation Reform Act of 1998
requires Federal employees to use travel charge cards for all
payments of expenses related to official Government travel,
including hotels, transportation costs, and meals.

The General Services Administration (GSA) issues the Federal
Travel Regulation (FTR) that implements the requirements of the
Act, and administers government travel cards through its
SmartPay program. Each agency selects one of the five banks
contracted by GSA as their travel card provider and negotiates
its own task order under the SmartPay master contract. The task
order identifies the specific charge card services the selected
bank will provide the agency, and documents the agreed upon
fees, including additional negotiated rebate percentages.

While responsibility for payment rests with the individual,
agencies also have a responsibility, as well as a financial
incentive, to ensure that accounts are paid timely and in full.
GSA’s master contract describes the agencies’ travel card
program responsibilities. These include ensuring that
cardholders use the card only for authorized purposes by
monitoring account activity; and managing delinquencies and
misuse by notifying the employee and management of delinquent
accounts, taking appropriate disciplinary action, and, as a last
resort, collecting the overdue amount from the employee through
salary offsets. Additionally, the negotiated rebate provides a
financial incentive for the agency to act to ensure that its
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   8
employees’ overdue balances are paid in full. Because unpaid
account balances reduce the amount of the rebate the agency
receives, it is important that the agency minimize delinquent
accounts. Monitoring and managing delinquencies also helps the
agency avoid potential negative publicity that can come from
unpaid accounts.


FOLLOW-UP REVIEW OF THE ADEQUACY OF PROCEDURES FOR ACCREDITING
CONFORMITY ASSESSMENT BODIES AND OVERSEEING THIRD PARTY TESTING
(ongoing)

     The “Consumer Product Safety Improvement Act of 2008”
(CPSIA) constituted a comprehensive overhaul of consumer product
safety rules, and it significantly impacted nearly all
children’s products entering the U.S. market.

   In relevant part, the CPSIA imposed a third party testing
requirement on all consumer products primarily intended for
children 12 years of age or younger. Every manufacturer
(including an importer) or private labeler of a children’s
product must have its product tested by an accredited
independent testing laboratory and, based on the testing, must
issue a certificate that the product meets all applicable
Consumer Product Safety Commission requirements. The CPSC was
given the authority to either directly accredit third party
conformity assessment bodies (hereafter referred to as “third
party laboratories”) to do the required testing of children’s
products or designate independent accrediting organizations to
accredit the testing laboratories. The CPSC is required to
maintain an up-to-date list of accredited labs on its website.
The CPSC has authority to suspend or terminate a laboratory’s
accreditation in appropriate circumstances and is required to
assess periodically whether laboratories should continue to be
accredited. The third party testing and certification
requirements for children’s products are phased in on a rolling
schedule. The statute requires the CPSC to issue laboratory
accreditation regimes for a variety of different categories of
children’s products.

     The CPSC determined quickly that it lacked the necessary
infrastructure to accredit the testing laboratories directly.
Accordingly, to leverage its available resources, the CPSC
decided to use an independent accrediting organization to
________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    9
accredit the testing laboratories. CPSC recognition requires a
laboratory to be accredited by an accreditation body that is a
signatory to the International Laboratory Accreditation
Cooperation Mutual Recognition Arrangement. The scope of
accreditation must include the test methods required by CPSC
laws and regulations; and the laboratory must apply to the CPSC
for recognition and also must agree to fulfill the requirements
of the CPSC program.

     This review will assess the CPSC’s implementation of the
recommendations made in last year’s review.


INFORMATION        TECHNOLOGY        INVESTMENT        MANAGEMENT   FOLLOW-UP   AUDIT
(ongoing)

     The Consumer Product Safety Improvement Act (CPSIA) calls
for upgrades of the CPSC’s information technology architecture
and systems and the development of a database of publicly
available information on incidents involving injury or death.
The CPSIA also calls for the OIG to review the agency’s efforts
in these areas.

     In order to assess objectively the current status of the
CPSC’s efforts in this area, and to help provide the agency with
a road map to meet the goals set out in the CPSIA, this office
used the Government Accountability Office’s (GAO’s) Information
Technology Investment Maturity (ITIM) model. The ITIM framework
is a maturity model composed of five progressive stages of
maturity that an agency can achieve in its IT investment
management capabilities. The maturity stages are cumulative;
that is, in order to attain a higher stage of maturity, the
agency must have institutionalized all of the requirements for
that stage, in addition to those for all of the lower stages.
The framework can be used to assess the maturity of an agency’s
investment management processes as a tool for organizational
improvement.

     The GAO’s ITIM maturity model framework offers
organizations a road map for improving their IT investment
management processes in a systematic and organized manner.
These processes are intended to: improve the likelihood that
investments will be completed on time, within budget, and with
the expected functionality; promote better understanding and

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                     10
management of related risks; ensure that investments are
selected based upon their merits by a well-informed decision-
making body; implement ideas and innovations to improve process
management; and increase the business value and mission
performance of investments.

     Under a contract monitored by the OIG, Withum, Smith &
Brown (WS+B), an independent certified public accounting firm,
performed an audit of the CPSC’s Information Technology (IT)
investment management processes, using the GAO’s ITIM framework.

     According to WS+B’s findings, at the time of their review,
the CPSC had reached Stage 1 of the five-stage IT investment
maturity model. The CPSC had already implemented several of the
key practices and critical processes that constitute Stage 2,
and WS+B provided recommendations on improving the CPSC’s IT
investment processes.

     Another contract has been awarded to WS+B to review the
CPSC’s Information Technology Architectures with a special
emphasis on the public database. Once again, the review is
being conducted using the GAO’s Information Technology
Investment Management (ITIM): A Framework for Assessing and
Improving Process Maturity, GAO-04-394G.

     The audit will build upon the results of the prior
assessment of the CPSC’s IT investment management maturity and
will evaluate what improvements have been made and where
additional progress is needed.


REVIEW OF THE SECURITY OF                   THE    CONSUMER     PRODUCT   SAFETY   RISK
MANAGEMENT SYSTEM (ongoing)

     The Consumer Product Safety Improvement Act of 2008 (CPSIA)
requires the Consumer Product Safety Commission (CPSC) to implement
a publicly accessible, searchable database of consumer product
incident reports.

     This database, the Consumer Product Safety Risk Management
System (CPSRMS), houses personal, proprietary, and confidential
data and is a major application, as defined by NIST SP 800-18.
Therefore, CPSRMS is required to implement specific security
controls and complete a Security Certification and Accreditation

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                       11
(C&A) process. NIST SP 800-37 provides guidance and best practices
for the C&A process that federal agencies are required to implement
as a mandate of the Federal Information Security Management Act
(FISMA). Consequently, CPSC management reviewed and validated
CPSRMS’s system security through the performance of a C&A
assessment and formally authorized CPSRMS to operate on January 16,
2011.

     This review is designed to evaluate the CPSC’s C&A assessment
(specifically, the six-step Risk Management Framework outlined in
NIST SP 800-37) to ensure that it meets the requirements of NIST SP
800-37 and Section 212 of the (CPSIA).


IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA) REVIEW

     IPERA (Public Law 111-204) was enacted on July 22, 2010, and
the Office of Management and Budget (OMB) issued implementing
guidance on April 14, 2011—OMB Memorandum M-11-16.        M-11-16
requires that Inspectors General review annually their agency’s
improper payment reporting in their agency’s Performance and
Accountability Report (PAR).

     Although the CPSC did publish and post on its agency website a
PAR, and that PAR did include some information regarding its
efforts to comply with IPERA, the agency acknowledges not being in
compliance with IPERA.    The agency did not conduct an initial
estimate of improper payments or a formal program risk assessment.
The PAR did not include any information regarding the agency’s
efforts to recapture improper payments. It is not possible for
this office to formally evaluate the accuracy and completeness of
agency reporting; or to evaluate agency performance in reducing and
recapturing improper payments because these, and other program
elements, have either not been developed or not been implemented.

     The CPSC indicated in their 2011 PAR that in 2012 they plan to
refine the risk assessment criteria such that a, “. . . gross
estimate is included and to be more substantially compliant with
OMB’s guidance and IPERA.” If this in fact takes place, it will be
possible for our office to perform a more formal, and substantive,
review of agency efforts in this area.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   12
                       INVESTIGATIVE PROGRAM
      A number of individuals contacted the Office of the Inspector
General during the reporting period to discuss their concerns about
matters involving CPSC programs and activities.       Four of the
individuals filed formal complaints alleging waste, fraud, abuse,
or mismanagement of CPSC resources. These complaints resulted in
the initiation of four investigations.       Several matters were
transferred to CPSC officials (management or the Equal Employment
Opportunity Commission (EEOC)) or other government agencies for
final disposition after initial investigation indicated that these
cases would be more appropriately dealt with outside of IG
channels. Several investigations were closed after a determination
that no action was required.

                                  Investigations
                                                                No. of Cases
                Beginning of period                                  5
                Opened                                               4
                Closed                                               7
                Transferred/Incorporated                             0
                  into existing investigation
                End of the period                                   2

REPORTABLE INVESTIGATIONS
     Alleged Misconduct by Government Employee – the subject of
this investigation engaged in a pattern of misconduct lasting over
two years and involving thousands of dollars of the taxpayer’s
money.   Subject violated a number of administrative rules and
regulations as well as a criminal statute (18 USC 208). Subject
violated Government ethics regulations by accepting a gift from a
subordinate in violation of 5 CFR 2635.       Subject misused the
Government travel card by charging personal expenses on it.
Subject failed to comply with the provisions of the Government
Travel Card program dealing with the timely payment of subject’s
Government travel card bill.        Subject violated the Basic
Obligations of Public Service, set out at 5 CFR 2635.101, by
failing to satisfy in good faith the obligations of a U.S. citizen
by both writing insufficient fund checks to pay debts subject
incurred using the Government Travel Card, failing to pay personal
debts, and failing to pay Federal taxes due to the District of

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                  13
Columbia. The Department of Justice was briefed about this case
and declined to take criminal jurisdiction.  Appropriate admin-
istrative action was taken by the agency.

     Alleged Misconduct by Government Employee – Anonymous
complainant alleged that supervisor had inappropriately detailed
an employee from another agency into a supervisory position at
the CPSC. Allegation was not substantiated by the evidence
available.

     Alleged Misconduct by Government Employee – An allegation
was made that a management official abused their position.
Allegation was not substantiated by the evidence available.


ONGOING INVESTIGATIONS

     Two investigations were ongoing at the end of the period.
These cases involve allegations of violations of various
agency or federal regulations and/or statutes.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    14
                                OTHER ACTIVITIES

LEGISLATION AND REGULATIONS

     The Office of the Inspector General reviews internal        and
external legislation and regulations that affect the Office of   the
Inspector General in specific, or the CPSC’s programs            and
activities, in general.     The OIG reviewed and commented        on
procedures applicable to the following subjects during           the
reporting period:

          Consumer Product Safety Improvement Act,
          Prompt Payment Act,
          Improper Payments Elimination and Recovery Act,
          Travel Card Program,
          Debt Collection Improvement Act,
          Conflicts of Interest,
          Security Clearance and Background Check Procedures,
          Federal Information Security Management Act,
          Morale of Employees,
          Violence in the Work Place,
          National Labor Relations Act,
          Purchase Card Program,
          Changes in Agency Acquisition Policies,
          Anti-Deficiency Act, and
          Social Media.


COUNCIL OF INSPECTORS GENERAL ON INTEGRITY AND
EFFICIENCY

     The Inspector General, as a member of the Council of
Inspectors General on Integrity and Efficiency (Council),
maintains active membership with the Council and its associated
activities. The Council identifies, reviews, and discusses
issues that are of interest to the entire IG community. The
Inspector General attended regular meetings held by the Council
and joint meetings of the Council and the GAO. The Office of
the Inspector General’s staff attended seminars and training
sessions sponsored or approved by the Council and its associated
activities.

________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress    15
COUNCIL OF COUNSELS TO THE INSPECTORS GENERAL

     The Council considers legal issues of interest to the Offices
of Inspectors General.    During the review period, the Council
reviewed existing and pending laws affecting the CPSC in general
and the Office of the Inspector General in specific and provided
other support as needed to the Inspector General.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress   16
                                                                              Appendix A



                  REPORTING REQUIREMENTS SUMMARY
Reporting requirements specified by the Inspector General Act of 1978, as amended, are listed
below:

      Citation                    Reporting Requirements                               Page

Section 4(a)(2)       Review of Legislation and Regulations……………………………………………15

Section 5(a)(1)       Significant Problems, Abuses, Deficiencies……………………………4–14

Section 5(a((2)       Recommendations With Respect to Significant Problems,
                      Abuses, and Deficiencies……………………………………………………………………………4–14

Section 5(a)(3)       Significant Recommendations Included in Previous Reports
                      on Which Corrective Action Has Not Been Taken………………………NA

Section 5(a)(4)       Matters Referred to Prosecutive Authorities…………………………13

Section 5(a)(5)       Summary of Instances Where Information Was Refused…………NA

Section 5(a)(6)       Reports Issued…………………………………………………………………………………………………………4–14

Section 5(a)(7)       Summary of Significant Reports………………………………………………………………4–14

Section 5(a)(8)       Questioned Costs……………………………………………………………………………………………………NA

Section 5(a)(9)       Recommendations That Funds Be Put to Better Use…………………NA

Section 5(a)(10)      Summary of Audit Report Issued Before the Start of
                      the Reporting Period for Which No Management
                      Decision Has Been Made……………………………………………………………………………………NA

Section 5(a)(11)      Significant Revised Management Decisions……………………………………NA

Section 5(a)(12)      Management Decisions with Which the Inspector General
                      Is in Disagreement………………………………………………………………………………………………NA

Section 845 of        Significant Contract Audit Reports……………………………………………………NA
The NDAA of 2008




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                                   17
                                                                Appendix B



                             PEER REVIEW RESULTS

The last peer review conducted by another Office of Inspector
General on the CPSC’s OIG was issued on May 23, 2011, and it is
available on the CPSC OIG’s Web page. All recommendations made
in that peer review have been implemented.

The last peer review conducted by the CPSC’s OIG on another
Office of Inspector General occurred on December 9, 2010, and it
involved the National Endowment for the Humanities Office of
Inspector General (NEH OIG). No deficiencies were noted, and no
formal recommendations were made in that review.




________________________________________________
OFFICE OF THE INSPECTOR GENERAL Semiannual Report to Congress                18
